Office of Inspector General



Office of Inspector General


February 9, 2006

MEMORANDUM

TO:            USAID/South Africa, Acting Mission Director, Denise Rollins

FROM:          Regional Inspector General/Pretoria, Jay Rollins /s/

SUBJECT:       Memorandum Report Regarding Certain USAID/South Africa Expired
               Obligation Documents with Unliquidated Balances
               (Report No. 4-674-06-001-S)

This memorandum report transmits our finding and recommendation regarding the need
to research certain USAID/South Africa expired obligation documents with unliquidated
balances totaling $131,050. This memorandum report is not an audit report, but rather
was developed during the field work for the audit pertaining to your contractor
performance evaluation and award closeout programs. We have reviewed your
comments on the draft memorandum report in which you indicate that the Mission
reviewed all thirty-six expired obligations identified in the draft report and took action to
deobligate thirty-five of them totaling $82,187. Based on this response, we consider the
single recommendation in this report to have received a management decision. Please
coordinate final action with USAID’s Office of Audit, Performance and Compliance. Your
comments have been included as Appendix II in this final memorandum report. I want to
express my sincere appreciation for the cooperation and courtesy extended to my staff
during this review.



BACKGROUND
USAID/South Africa’s Office of Acquisition and Assistance (OAA) has contracting
responsibility for the Mission. The office is staffed with a contracting officer, a senior
acquisition and assistance specialist and six other specialists and assistants whose
responsibilities include awarding contracts, grants and cooperative agreements, as well as
closing them. The Executive Office also retains closeout responsibilities for certain small
purchase documents.

USAID policies and procedures state that missions should have formal control systems in
operation for the closeout of contracts and grants. Whenever a document expires, the
control system should go in motion to ensure that the Controller, CTO, contractor/grantee,
and OAA perform their various closeout responsibilities. These responsibilities ensure that
the disposition of all funds, as well as non-expendable property, is properly authorized and
documented.
In addition to the closeout process, USAID policies and procedures state that financial
management consists of recording and reporting obligations and expenditures that are
consistent with the applicable appropriation act, as well as conducting an annual review
and certification of remaining unliquidated balances.

For fiscal year 2005, USAID/South Africa reported budget authorizations of $5.5 million for
operating expense funds, in addition to $83 million for program funds.


DISCUSSION
ADS Chapter 302, USAID Direct Contracting, states that the Federal Acquisition Regulation
(FAR) is an ADS mandatory reference, while the Guidebook for Managers and Cognizant
Technical Officers on Acquisition and Assistance (Guidebook) serves as a supplementary
reference. FAR Part 4 establishes several different time frames for closing out various
types of contracts, as well as describing numerous steps to be taken in the process. The
Guidebook states that all USAID missions should have formal systems in operation for the
closeout of contracts and grants. As a basis for these systems, the Guidebook cites
Contract Information Bulletin (CIB) 90-12 as an additional supplement. This CIB states that
a continuing priority of USAID is the expeditious closeout of acquisition and assistance
instruments after the goods have been received or services have been delivered. It
reiterates the necessity for a firm commitment by all procurement officials to effect closeout
of instruments in a timely and comprehensive manner. USAID guidance states that the
closeout process is vital in ensuring that the disposition of remaining fund balances and
non-expendable property has been properly authorized and documented.

ADS 621 states that mission controllers must coordinate at least annually a mission-wide
review of all unexpended obligations to identify excess and unneeded balances for
potential deobligation. USAID’s Deobligation Guidebook, provides detailed steps for
identifying obligations1 that are no longer needed and for subsequently deobligating the
balances.

In order to test whether USAID/South Africa had closed out awards in accordance with
guidance during the audit pertaining to contractor performance evaluation and award
closeout programs, we began by testing documents in the Mission’s accounting system
that we considered the highest risk—documents over 36 months since their reported
expiration date. We selected 36 months to provide sufficient time for the settlement of
indirect cost rates and the completion of financial audits or other final settlement activities
as set forth in FAR Part 4.

As reported by the Controller’s Office2, there were 95 documents with undisbursed
balances totaling $1,099,957 that were 36 months past their reported expiration
dates. Of these 95 documents, we determined that 36 documents with total
undisbursed balances of $131,050 were either not subject to closeout procedures or
were not the closeout responsibility of the Mission’s Office of Acquisition and
Assistance (OAA).

1
  For documents under a Strategic Objective Agreement (SOAG), different terms may be used for
the term “obligation,” such as “subobligation” or “commitment.”
2
  Source: Mission Accounting and Control System, as of August 31, 2005.


                                                                                             2
The documents in question represented a number of different types of obligations.
Several were small purchase documents for which the Executive Office had the
responsibility for closing.      Several documents consisted of journal vouchers
processed by the Controller’s Office. There were also numerous outstanding travel
authorizations for various purposes such as temporary duty, rest and relaxation,
separation, and invitational travel. Other documents consisted of self help projects
implemented through the U.S. Embassy. There was also a project implementation
letter, as well as a participating agency service agreement. This data is summarized
in the table in Appendix I.


CONCLUSION
Although we did not perform any auditing procedures on these documents, the
excessive time that has passed since the reported expiration dates indicated to us
that these documents represented a high level of financial risk for USAID/South
Africa. For example, the reported expiration dates go back as far as August 1993.
Due to their age, we believe that action may need to be taken on these documents
to resolve any outstanding issues and to identify balances that may no longer be
needed. The reported age of these documents represents a substantial risk that a
significant level of funding may not have been made available for better uses.

In order to reduce the risk that funds represented by the documents in this memorandum
report are not being put to better use, we have the following recommendation.

   Recommendation No. 1: We recommend that USAID/South Africa research the
   documents totaling $131,050 in unliquidated obligations set forth in this report
   and deobligate the balances that are no longer needed.


EVALUATION OF MANAGEMENT COMMENTS
The Mission agreed with the single recommendation. In the process of reviewing the
thirty-six obligations identified in the draft report, the Mission reportedly took action to
deobligate thirty-five of the obligations totaling $82,187. The Mission determined
that one obligation, totaling $48,862, was still valid. Based on the Mission’s
comments, we consider Recommendation No. 1 to have received a management
decision. Final action may be achieved by providing evidence of these deobligations
to USAID’s Office of Audit, Performance and Compliance.

In addition to addressing the audit recommendation, the Mission took additional
actions to strengthen its accounting practices. As a direct result of researching the
obligations above, the Controller found that the procedure for liquidating advances
and issuing Bills for Collection (BOC) was inadequate. Four BOCs, amounting to
$217,000, were discovered to have outstanding advances still on the advance
ledger. According to the Mission, a new procedure was drafted and corrective action
was taken to liquidate those advances.



                                                                                          3
Another benefit to addressing the recommendation occurred when the Mission
established standard operating procedures to reinforce Agency debt collection
regulations and began a review of twenty-seven BOCs, totaling $970,000, dating
back as far as 1995. According to those regulations (Automated Directives System
625.3.4), any debt over 180 days delinquent that is not in the process of being
collected must be referred to either the Mission director or to USAID/Washington for
write-off/transfer to Treasury.

Finally, the Mission thanked the Regional Inspector General’s office for its work in
highlighting the expired obligations in this report, and for the additional benefits to
the Mission as they have taken steps to proactively address those obligations.




                                                                                     4
                                                                      APPENDIX I


                      Documents Reportedly Expired
         over 36 Months with Undisbursed Balances and Closeout
      Responsibilities Other than Office of Acquisition and Assistance


  No. of                               Earmark                    Undisbursed
  Documents   Document No.             Control No.   End Date     Amount
  1           AEP-P-00-96-00024-00     C000183        9/30/2002      48,862.26
  2           JV-067417178             C990222        9/30/2000       1,914.39
  3           PIL-674-0315-5042-93     C970359       12/31/2001       4,142.00
  4           SO#1-MISC-JV967417182    C990169        3/31/2001       3,000.00
  5           SO#1-MISC-JV967417182    C990170        3/31/2001       1,332.29
  6           SSH-00-674-E-03          B000134       10/31/2001         806.39
  7           SSH-01-674-EP-03         B100072        5/28/2002         481.12
  8           SSH-01-674-EP-06         B100151        5/28/2002         920.95
  9           SSH-01-674-J-04          B100161        5/31/2002         605.36
  10          SSH-94-674-J-12          B940257       12/28/1994       5,942.47
  11          SSH-98-674-J-02          B980153         7/2/1999       9,500.00
  12          SSH-98-674-J-10          B980161         7/2/1999       4,461.10
  13          SSH-99-674-D-06          B990167        3/22/2000       6,025.00
  14          SSH-99-674-EP-08         B990153       10/30/2000       1,849.08
  15          SSH-99-674-P-15          B990101       10/30/2000       2,328.70
  16          TA-3990245               B930351        8/20/1993       3,276.38
  17          TA-674-00-0154           C000115        9/15/2000          60.60
  18          TA-674-02-0077           C990205         5/4/2002       2,548.27
  19          TA-674-02-0080           C000115        4/29/2002       1,042.98
  20          TA-674-94-0201           B940392        8/29/1994         247.23
  21          TA-674-95-0372           B950464       10/20/1995         492.68
  22          TA-674-99-0101           C990043        5/23/1999         639.65
  23          TR-674-01-0041-0472      C000128        9/25/2001         550.00
  24          PO-674-0318-O-00-4931    B940431        1/15/1995         454.80
  25          PSC-674-0318-S-00-5192   B950363        1/19/1996           4.03
  26          PO-674-0318-O-00-5863    B950458        3/31/1996       2,341.95
  27          PO-674-0318-O-00-7044    C970050        8/18/1997       9,490.00
  28          PSC-674-0318-S-00-7028   C970011        9/30/1997       1,197.04
  29          PO-674-0318-O-00-8677    C980033         5/5/1998       4,972.90
  30          PO-674-O-00-00-00677     C000146        9/15/2000       2,739.80
  31          PSC-674-0318-S-00-6114   C990069       10/30/2000         195.99
  32          PO-674-O-02-00-02051     C000326        1/31/2002         729.83
  33          PO-674-O-02-00-02203     B200073        7/19/2002           0.07
  34          HRN-P-00-97-00016-00     C100156        9/18/2002       5,941.01
  35          PO-674-O-02-00-02278     B200173        9/30/2002          11.09
  36          PO-674-0318-O-00-8020    C980010        6/30/1998       1,942.70
  Total                                                           $ 131,050.11




MANAGEMENT COMMENTS




                                                                                 5
                                                                             APPENDIX II




                                                  UNITED STATES GOVERNMENT
                                                           ACTION M E M O R A N D U M
DATE                :         February 1, 2006

TO:                           Jay Rollins, Regional Inspector General/Pretoria

FROM                :         Denise Rollins, Acting Mission Director /s/

                              Management comments – Draft Memorandum Report regarding
SUBJECT             :         certain USAID/South Africa expired obligation documents with
                              unliquidated balances (Report No. 4-674-06-XXX-S)


The mission has reviewed the subject draft Memorandum Report and agrees with your
single recommendation.

The following is our response and the actions taken to resolve it.

Recommendation #1: We recommend that USAID/South Africa research the
documents totaling $131,050 in unliquidated obligations set forth in this report and
deobligate the balances no longer needed.

In the process of reviewing the subject Memorandum Report the Mission took action to
deobligate thirty-five of the thirty-six obligations. The total amount deobligated is
$82,187. The Mission determined that one obligation (totaling $48,862.26) is valid and
is required to cover costs of a USAID/SA PASA. The mission’s action addresses the
recommendation, and requests the finding be considered closed upon issuance of the final
report.

In addition to addressing the audit recommendation above, the Mission took additional
actions to strengthen its accounting practices. As a direct result of researching the
obligations above, the Controller found that the procedure for liquidating advances and
issuing bills for collection was inadequate. Bills for collection were being issued, while
maintaining the outstanding advance in the advance ledger. At the same time, the Bill for
Collections was being recorded on the Agency’s Data Collection Tool. This had the
effect of counting the outstanding amount twice in the Agency’s financial statements.
Four Bills for Collection, amounting to $217,000, were discovered to have outstanding
advances still on the advance ledger. A new procedure has been drafted and corrective
action has been taken to liquidate all advances where a Bill for Collection has been
issued.



                                                                                         6
                                                                              APPENDIX II


Another benefit to addressing this recommendation occurred when the Bill for Collection
data base was reviewed. There were twenty-seven Bills for Collection, totaling
$970,000, dating back as far as 1995. According to ADS 625.3.4 any debt over 180 days
delinquent that is not in the process of being collected must be transferred to Treasury.

The Mission has established standard operating procedures to reinforce the ADS Debt
Collection regulations and is in the process of reviewing each Bill for Collection. Any
BOCs that exceed the 180 day time frame and are not in the process of being collected
will be referred to either the Mission director or to USAID/Washington for write off /
transfer to Treasury.

The Mission would like to take this opportunity to thank the Regional Inspector
General’s office for their work in highlighting the expired obligations in the subject
report, and for the additional benefits to the Mission as they have taken steps to
proactively address those obligations and the additional issues indirectly arising from the
recommendation.




                                                                                          7
